   Actions Needed to Resolve Construction Delays at the
             Counter-Narcotics Justice Center




                                  August 27, 2009


SIGAR Audit-09-4 Justice Reform
                    OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR
                           AFGHANISTAN RECONSTRUCTION



August 27, 2009

The Honorable Karl W. Eikenberry
U.S. Ambassador to Afghanistan

David T. Johnson
Assistant Secretary, Bureau of International Narcotics and Law Enforcement Affairs
U.S. Department of State

Colonel Michael McCormick
Commander, Afghanistan Engineering District
U.S. Army Corps of Engineers

This report presents the results of our review of delays in the construction of a detention facility at the
U.S.-funded Counter-Narcotics Justice Center in Kabul, Afghanistan. The Center is a key component of
U.S. and Afghan counter-narcotics efforts and addressing delays in the construction of the detention
facility is critical to the successful operation of the Center. Consequently, the report includes two
recommendations for the State Department’s Bureau of International Narcotics and Law Enforcement
Affairs to expedite the construction of that facility.

A summary of our report is on page ii. The audit was conducted by the Office of the Special Inspector
General for Afghanistan Reconstruction (SIGAR) under the authority of Public Law 110-181 and the
Inspector General Act of 1978, as amended. When preparing the final report, we considered written
comments from the Department of State’s Bureau of International Narcotics and Law Enforcement
Affairs and the U.S. Army Corps of Engineers - Afghanistan Engineer District on a draft of this report, and
incorporated as appropriate. Copies of their comments are included in appendices II and III of this
report.




John Brummet
Assistant Inspector General for Audits
Office of the Special Inspector General for Afghanistan Reconstruction




SIGAR-09-4 Justice Reform                                                                               Page i
                                           SIGAR RESULTS

What SIGAR Reviewed

The U.S.-funded $11 million Counter-Narcotics Justice Center in Kabul, Afghanistan, is a key component
of U.S. and Afghan counter-narcotics efforts. The Center opened earlier this year, three years behind
schedule, and has already reached capacity. The construction of additional facilities is critical for the
successful operation of the Center. This report identifies factors that have contributed to delays in
expanding the Center’s detention and support facilities under a $2 million interagency support
agreement between the Department of State’s Bureau of International Narcotics and Law Enforcement
Affairs and the U.S. Army Corps of Engineers - Afghanistan Engineer District. We conducted our review
in Kabul, Afghanistan and Washington, D.C. in July 2009. Our work was conducted in accordance with
generally accepted government auditing standards. This report is the first in a series of SIGAR audits
addressing U.S. efforts to deter corruption and strengthen the rule of law.

What SIGAR Found

Detention facilities at the Counter-Narcotics Justice Center, which became fully operational in May
2009, have already reached capacity and narcotics-related offenders are being sent to other locations.
Plans to construct additional detention and support facilities at the Center have been delayed for almost
18 months because of insufficient funding and inadequate utilities. New construction has not begun
because the U.S. Army Corps of Engineers was not able to secure any construction bids within the
funding amount provided by the State Department under a $2 million interagency support agreement.
In addition, according to Army and State Department engineers, new detention facilities would require
upgrades to water, sewer, and electrical utilities because expansion would overtax the existing capacity
of those utilities. Although the Corps of Engineers and the State Department agreed that utility
upgrades should be completed prior to the construction of the new facilities, the Corps has not
proceeded with those upgrades because they were not included in the original scope of work and
because of questions regarding the validity of the appropriated funds. Delays in expanding the capacity
of the Counter-Narcotics Justice Center, which has exclusive nationwide jurisdiction over significant
narcotics cases, could impact U.S. and Afghan government efforts to combat the illicit drug trade in
Afghanistan. Moreover, $1.4 million in appropriated U.S. funds to support these efforts remain unused.



What SIGAR Recommends

To expedite the construction of additional detention and support facilities at the Counter-Narcotics
Justice Center in Kabul, we recommend that the State Department amend the original interagency
support agreement’s scope of work to include the recommended utility upgrades. We also recommend
that the State Department either increase the amount of funding under that interagency support
agreement to cover additional costs of planned detention and support facilities, or issue a new
agreement to include the necessary amount of funding.




SIGAR Audit-09-4 Justice Reform                                                                    Page ii
TABLE OF CONTENTS

Background                                                                         1

Insufficient Funding and Inadequate Utilities Continue to Delay Construction       3

Connecting to City Electrical Grid Could Provide Significant Cost Savings          4

Conclusion                                                                         5

Recommendations                                                                    6

Comments                                                                           6

Appendix I:   Scope and Methodology                                                7

Appendix II: Comments from Department of State                                     8

Appendix III: Comments from U.S. Army Corps of Engineers                          10




Abbreviations

SIGAR Special Inspector General for Afghanistan Reconstruction

ANDS Afghanistan National Development Strategy




SIGAR Audit-09-4 Justice Reform                                                Page iii
                       Actions Needed to Resolve Construction Delays
                           at the Counter-Narcotics Justice Center

This report identifies factors that have contributed to delays in the construction of additional detention
facilities at the recently opened $11 million U.S.-funded Counter-Narcotics Justice Center in Kabul,
Afghanistan. Our work focused on $2 million provided under a 2007 interagency support agreement
between the U.S. Department of State’s Bureau of International Narcotics and Law Enforcement Affairs
and the U.S. Army Corps of Engineers-Afghanistan Engineer District for additional construction at the
Center. The Center houses Afghanistan’s sole court for the prosecution and appeal of significant
narcotics cases; therefore, delays in expanding the capacity of the Center could negatively impact U.S.
and Afghan government efforts to combat the illicit drug trade in Afghanistan. A major goal of the
Afghanistan National Development Strategy (ANDS) is "eliminating the narcotics industry, which remains
a formidable threat to the people and state of Afghanistan, the region and beyond." One of the key
benchmarks under the ANDS Governance, Rule of Law and Human Rights Pillar is that the Afghan
Government will "increase the number of arrests and prosecutions of drug traffickers and corrupt
officials." Since the Center houses the Central Narcotics Tribunal, which has exclusive nationwide
jurisdiction over significant narcotics cases, the Center’s successful operation has a direct impact on the
prosecutions of drug traffickers. 1

This report is the first in a series of SIGAR audits addressing U.S. efforts to deter corruption and
strengthen the rule of law. We conducted our work in Kabul, Afghanistan and Washington, D.C. in July
2009 in accordance with generally accepted government auditing standards. A discussion of our scope
and methodology is in Appendix I.


BACKGROUND
The United States recently completed construction of the first phase of an $11 million Counter-Narcotics
Justice Center to support ongoing narcotics interdiction efforts by the Afghan Government. The Center
is a dedicated secure facility constructed by the U.S. Department of Defense that provides a centralized
location for the Afghan Government to prosecute and detain narcotics offenders. It houses
Afghanistan’s Central Narcotics Tribunal, which has exclusive nationwide jurisdiction over significant
narcotics cases, and the Criminal Justice Task Force consisting of Afghan prosecutors and investigators
who receive mentoring by Department of Justice advisors.

The first phase of construction was completed three years behind schedule, not becoming fully
operational until May 1, 2009. Currently, the Center consists of a detention building, courthouse, offices
for judges and prosecutors, and barracks for members of the protective Afghan Marshals Service. The
detention building contains 28 cells that can accommodate a total of 56 prisoners with two prisoners
per cell. The courthouse includes courtrooms for primary and appellate courts and chambers that
accommodate 14 judges—7 for the primary court, including a chief judge, and 7 for the appellate court,
including a chief judge. There are also offices for 35 investigators and 30 prosecutors, a dining facility,
two diesel-powered generators for electricity, and barracks for 150 members of the Afghan Marshals


1
 The Central Narcotics Tribunal has jurisdiction over cases involving more than 2kg of heroin, morphine or cocaine,
more than 10kg of opium and more than 50kg of hashish or precursors chemicals.


SIGAR Audit-09-4 Justice Reform                                                                            Page 1
Service. Located near the Kabul International Airport, the Center will receive two years of operations
and maintenance support from the State Department estimated at $3 million per year.

The second phase of construction for the Center was to include the design and construction of an
additional detention facility and another set of barracks. In May 2007, the State Department and the
Army Corps of Engineers signed an interagency agreement for the provision of goods and services
related to the construction of facilities in support of State Department programs in Afghanistan. The
agreement, pursuant to section 632(b) of the Foreign Assistance Act of 1961, as amended, was valid
until May 2010, or until a maximum ceiling amount of $50 million had been reached.

According to the interagency agreement, requests
from the Department of State for U.S. Army Corps
of Engineers assistance were to be documented by
support agreements containing, among other
things, a final statement of work, as well as a
timeline for acquisition, design and construction.
Each support agreement was to address a separate
project and specify the amount of funds to be
obligated on that particular project. The fiscal
terms of the interagency agreement stated that the
obligation of funds would be based upon the
support agreements.

In accordance with the interagency agreement, the
State Department prepared a support agreement
to fund the construction of additional detention
and barracks facilities for the Counter-Narcotics
Justice Center. 2 The support agreement provided
the Army Corps of Engineers with $2 million to
complete the work by January 2008. The scope of
work included in the support agreement called for
the design and construction of an additional 175-
bed detention facility, support functions for the
new detention facility, and barracks for 60 local
national security officers. The overall project was
                                                        Photograph of a courtroom used to adjudicate
defined as “the design, material, labor, and
                                                        narcotics-related cases at the Counter-Narcotics
equipment to construct buildings, parking, utilities
                                                        Justice Center. (Source: SIGAR)
and other infrastructure in support of managing
defendants awaiting trial.” All construction done
under the scope of work was to meet current U.S. design and building codes, safety and security
standards, and applicable local standards. Further, the design of the detention facility was to be in
accordance with the latest American Correctional Association standards for quality.




2
 According to records reviewed by SIGAR, support agreement 2078728M32 was signed by a Department of State
representative on May 2, 2007 and electronically signed by an Army Corps of Engineers representative on February
6, 2008.

SIGAR Audit-09-4 Justice Reform                                                                         Page 2
INSUFFICIENT FUNDING AND INADEQUATE UTILITIES CONTINUE TO DELAY CONSTRUCTION

Although the Center has only been fully operational for three months, its existing detention cells are
already filled to capacity and nearly eighteen months have passed without the anticipated construction
of an additional detention facility or the necessary upgrading of utilities. 3 Due to expected high
demand, the Afghan commander of the Center is considering putting four prisoners in each cell rather
than two—a move that could violate American Correctional Association standards for quality. 4 Newly
arrested narcotics offenders were being sent to other locations because there was no available
detention space at the Center.

Although some work was accomplished under the second phase of construction at the Center, the
construction of an additional detention facility, scheduled to be completed by January 24, 2008, had not
been started as of July 2009, due to several factors:

    •    The Army Corps of Engineers was unable to secure any bids within the funding amount allotted
         for the new detention facility.
    •    Army and State Department engineers determined that the additional detention facility would
         overtax the existing Center’s water, sewer, and electrical utilities and recommended that utility
         upgrades be done before constructing the new detention facility.
    •    Although State Department officials agreed with that recommendation, the Corps did not
         proceed because the utilities work was not included in their original scope of work and because
         Corps officials believed that the funds provided under the interagency agreement had expired
         and were no longer valid.

Insufficient Funding Resulted in Lack of Acceptable Bids

The Army Corps of Engineers used about $600,000 of the $2 million to complete or repair work from the
Center’s original construction and to construct a new set of barracks. However, the Corps was unable to
obtain a bid to construct the additional detention facility within the remaining amount provided under
the original support agreement with the State Department. According to Corps officials, all bids that
were submitted in response to its request for proposal to build the new detention facility were above
the amount provided under the original support agreement. Consequently, the Corps did not accept
any bids and did not begin construction of the new detention facility as planned.

Additional Detention Facility Would Overtax Existing Utilities

Further complicating the delayed construction of the new detention facility was the fact that, during
final inspection and after analyzing the construction site, State Department and Corps engineers,
respectively, determined that the additional facility would overtax the Center’s existing sewer, water,
and electrical utilities. Engineers from both agencies recommended that those utilities be upgraded.

3
 According to State Department officials, the majority of detainees are low-level drug criminals, whereas the
Center was originally developed to house mid- and high-level drug traffickers. This issue will be addressed in a
separate SIGAR letter report to be issued to U.S. Embassy-Kabul later this month.
4
 American Correctional Association standards require 4.6 square meters (50 sq ft) of unencumbered space for
each two-person cell.

SIGAR Audit-09-4 Justice Reform                                                                              Page 3
Specifically, the engineers found that the existing sewer system, which was designed to accommodate
about 200 personnel, required daily emptying by sewage trucks and would be immediately overloaded
with the additional personnel expected to occupy the new facility. With regard to water, the engineers
found that, although the existing well pump capacity could supply the average daily water demands for
the projected population of people, there was no additional capacity, test results indicated that the
water was saline, and the existing water well system was undersized for future loading. More
importantly, since there was only one well pump, the Center had no backup system in the event of
pump failure. Finally, according to the engineers, the generators being used to provide electricity to the
Center were not synchronized to operate in parallel, and whichever generator was in operation was
already near its capacity and would not be able to handle the future loading.

Engineers from both agencies recommended that these utility shortfalls be addressed by installing a
packaged wastewater treatment plant, adding a second well to be dedicated for domestic kitchen use,
and obtaining additional electrical power by connecting to the city power grid. According to Corps
engineers, the sewer, water, and electrical upgrades would cost approximately $1.25 million, well within
the $1.4 million balance remaining under the interagency support agreement.

Utilities Upgrades Not Included in Original Scope of Work

The State Department agreed in a letter dated May 18, 2009 to allow the Corps to use the remaining
funds to perform the utility upgrades recommended by its engineers. However, Corps officials then
determined that they could not use the remaining funds because: 1) the utility upgrades were not
included in the original scope of work for those funds, and 2) by then, Corps officials believed that the
authority to expend the funds had expired. Consequently, the Army Corps of Engineers refused to move
ahead, despite assurances from State Department officials that the funding was still valid and that the
work could continue. After discussions with SIGAR, and further legal review, Corps legal staff agreed
that the remaining funds had not expired and could be used to perform the recommended utility
upgrades as long as the original scope of work was properly modified by the State Department. 5


CONNECTING TO CITY ELECTRICAL GRID COULD PROVIDE SIGNIFICANT COST SAVINGS

According to the Army Corps of Engineers, connecting the Center to the city electrical grid could achieve
significant cost savings. By one estimate, the savings due to lower fuel consumption would be between
$300,000 and $600,000 per year. Although connection to the nearby grid would cost as much as
$300,000, that amount could be recovered within six to twelve months, depending on the stability of
the voltage from the grid. 6 Reducing the Center’s operating costs would also help improve the
Government of Afghanistan’s ability to sustain the Center should U.S. support be reduced or eliminated
in the future.




5
 Since the interagency agreement was executed under section 632(b) of the Foreign Assistance Act of 1961, as
amended, the obligation of funds occurred at the time the agreement between the Department of State and the
Army Corps of Engineers was signed, rather than when the Corps obtained contracts to expend the funds.

6
  During an inspection of the first phase of construction, a State Department engineer noted that another
transformer would be required to connect to the nearest aerial power line.

SIGAR Audit-09-4 Justice Reform                                                                             Page 4
The State Department has agreed to provide two years of operations and maintenance support for the
Center--estimated at $3 million per year, including the provision of electrical power. Along with
recommending that the State Department address utility shortfalls before constructing the additional
detention facility, engineers from the Army Corps of Engineers and the State Department specifically
recommended connecting the Center to the city electrical grid and using the more expensive generators
for backup power.




                                                                        Photograph showing the proximity
                                                                        of the Counter-Narcotics Justice
                                                                        Center to Kabul city power lines.
                                                                        (Source: SIGAR)




CONCLUSION
In order for the $11 million Counter-Narcotics Justice Center to operate as intended, it needs additional
detention cells. Existing cells are filled to capacity and narcotics-related prisoners are being sent to
other locations. Several factors have resulted in the delayed construction of additional detention
facilities, while the State Department and the U.S. Army Corps of Engineers have been deadlocked over
funding issues. Action is necessary to expedite the construction of these much-needed facilities.
Furthermore, due to the Center’s continued lack of connection to the Kabul electric grid, considerable
cost savings are being forgone. Relieving the Center’s dependency on expensive generators may
provide cost savings to the United States estimated at $300,000 to $600,000 a year, and potentially
improve long-term sustainability.




SIGAR Audit-09-4 Justice Reform                                                                    Page 5
RECOMMENDATIONS
To expedite the construction of the planned detention facilities at the Counter-Narcotics Justice Center
in Kabul, Afghanistan and to utilize approximately $1.4 million in remaining U.S. appropriations we
recommend that the Department of State’s Bureau of International Narcotics and Law Enforcement
Affairs:

•   Amend the original scope of work under interagency support agreement number 2078728M32 with
    the U.S. Army Corps of Engineers-Afghanistan Engineer District to include the utility upgrades for the
    Counter-Narcotics Justice Center in Kabul, Afghanistan, that remain under that agreement, or
    reprogram those funds to accomplish the same work through another mechanism.

•   Modify the interagency support agreement number 2078728M32 with the U.S. Army Corps of
    Engineers-Afghanistan Engineer District to increase the amount of funding to cover the costs of
    constructing the additional detention facility envisioned under the original second phase of
    construction for the Counter-Narcotics Justice Center in Kabul, Afghanistan, or alternatively use
    another mechanism.



COMMENTS
The Department of State’s Bureau of International Narcotics and Law Enforcement Affairs and the U.S.
Army Corps of Engineers-Afghanistan Engineer District provided written comments on a draft of this
report, which are included in appendices II and III. The Department’s Bureau of International Narcotics
and Law Enforcement Affairs also provided technical comments which we incorporated in this report, as
appropriate.

The Department’s Bureau of International Narcotics and Law Enforcement Affairs generally concurred
with the report’s findings and recommendations. The Bureau stated that they generally agreed with
both recommendations to amend the agreement with the U.S. Army Corps of Engineers but objected to
the provision that funding be limited to a specific interagency support agreement. The Bureau suggested
that a variety of mechanisms would present contractual and cost savings options for completing the
utility upgrades and detention center construction. We did not intend to restrict the funding
mechanism and modified the recommendation accordingly. U.S. Army Corps of Engineers-Afghanistan
Engineer District-North concurred with the report’s recommendations. The Commanding officer
indicated that the Corps would work closely with the Bureau of International Narcotics and Law
Enforcement Affairs to ensure completion of the expansion of the Counter-Narcotics Justice Center after
execution of an amended or new interagency support agreement.




SIGAR Audit-09-4 Justice Reform                                                                    Page 6
APPENDIX I: SCOPE AND METHOLOGY

We conducted audit work during July 2009 in Washington, DC, and in Kabul, Afghanistan to determine
why the construction of an additional detention facility at the Counter-Narcotics Justice Center in Kabul,
Afghanistan had not been completed as intended. This audit is the first in a series of SIGAR audits
addressing U.S. efforts to deter corruption and strengthen the rule of law.

To accomplish our objective, we reviewed correspondence and documentation provided by U.S.
Government officials in Washington, DC, and at the U.S. Embassy in Kabul, Afghanistan; interviewed
officials from the U.S. State Department’s Bureau of International Narcotics and Law Enforcement
Affairs in Washington, DC and at the U.S. Embassy in Kabul, Afghanistan, and from the U.S. Army Corps
of Engineers-Afghanistan Engineer District in Kabul, Afghanistan; and conducted a site visit to the
Counter-Narcotics Justice Center in Kabul. We consulted with Army Corps of Engineers legal officials to
determine the validity of funding and researched provisions under section 632(b) of the Foreign
Assistance Act of 1961, as amended.

We conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe the evidence obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives. The audit was conducted by the Office of the Special Inspector General for
Afghanistan Reconstruction under the authority of Public Law 110-181, and the Inspector General Act of
1978, as amended.




SIGAR Audit-09-4 Justice Reform                                                                    Page 7
APPENDIX II: COMMENTS FROM DEPARTMENT OF STATE




SIGAR Audit-09-4 Justice Reform                  Page 8
SIGAR Audit-09-4 Justice Reform   Page 9
APPENDIX III: COMMENTS FROM U.S. ARMY CORPS OF ENGINEERS




(This report was conducted under the audit project code SIGAR-007A.)




SIGAR Audit-09-4 Justice Reform                                        Page 10
_________________________________________________________________________________
SIGAR’s Mission               The mission of the Special Inspector General for Afghanistan
                              Reconstruction is to enhance oversight of programs for the
                              reconstruction of Afghanistan by conducting independent and
                              objective audits, inspections, and investigations on the use of
                              taxpayer dollars and related funds. SIGAR works to provide
                              accurate and balanced information, evaluations, analysis, and
                              recommendations to help the U.S. Congress, U.S. agencies, and
                              other decision-makers to make informed oversight, policy, and
                              funding decisions to:

                                  •   improve effectiveness of the overall reconstruction strategy
                                      and its component programs;
                                  •   improve management and accountability over funds
                                      administered by U.S. and Afghan agencies and their
                                      contractors;
                                  •   improve contracting and contract management processes;
                                  •   prevent fraud, waste, and abuse; and
                                  •   advance U.S. interests in reconstructing Afghanistan.


Obtaining Copies of SIGAR         To obtain copies of SIGAR documents at no cost, go to
Reports and Testimonies           SIGAR’s Web site (www.sigar.mil). SIGAR posts all released
                                  reports, testimonies, and correspondence on its Web site.


To Report Fraud, Waste, and       To help prevent fraud, waste, and abuse by reporting
Abuse in Afghanistan              allegations of fraud, waste, abuse, mismanagement, and
Reconstruction Programs           reprisal contact SIGAR’s hotline:

                                      •   Web: www.sigar.mil/fraud
                                      •   Email: hotline@sigar.mil
                                      •   Phone Afghanistan: +93 (0) 700-10-7300
                                      •   Phone DSN Afghanistan 318-237-2575
                                      •   Phone International: +1-866-329-8893
                                      •   Phone DSN International: 312-664-0378
                                      •   U.S. fax: +1-703-604-0983



Public Affairs                    Public Affairs Officer
                                     • Phone: 703-602-8742
                                     • Email: PublicAffairs@sigar.mil
                                     • Mail: SIGAR Public Affairs
                                         400 Army Navy Drive
                                         Arlington, VA 22202
